HHS/OIG-Audit--"Audit of Issues Related to the Food and Drug Administration Review of Bovine Somatotropin, (A-15-90-00046)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Issues Related to the Food and Drug Administration Review of
Bovine Somatotropin," (A-15-90-00046)
February 21, 1992
Complete Text of Report is available in PDF format
(1.07 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our audit of the FDA's review of the new animal drug bovine somatotropin (bST)
found that research was conducted to demonstrate both that bST is not harmful
to humans, and that bST levels in milk are not higher in bST-treated cows than
in non-treated cows. Our review also showed that FDA and Monsanto appropriately
withheld animal health data on bST, but FDA publicly disclosed the data it reviewed
on human food safety. The FDA concurred with our recommendation that the Commissioner
of FDA develop policies and procedures on the type of public statements that
can be made regarding a new animal drug undergoing review.